ACQUISITION AND
PROCUREMENT: Gateway
Program’s Concrete Casing
Project Progressing Well; Cost
Increases Will Likely Exceed
Project Budget
           Audit Report OIG-A-2014-004 | February 11, 2014
          NATIONAL RAILROAD
          PASSENGER CORPORATION




                                        REPORT HIGHLIGHTS
Why We Did This Review                    ACQUISITION AND PROCUREMENT: Gateway Program’s Concrete Casing Project
                                          Progressing Well; Cost Increases Will Likely Exceed Project Budget (Audit
The Gateway Program is a planned          Report OIG-A-2014-004, February 11, 2014)
but not fully funded set of projects
that would double rail capacity           What We Found
between Newark, New Jersey, and
New York City. One of Amtrak’s            Amtrak has established an effective project management framework for
initial projects is to construct a        managing the concrete casing project. We did not identify any significant
concrete casing to accommodate            risks related to the project’s scheduled completion or the contractor’s
two new rail tunnels into Penn            performance. We did note, however, that project costs are exceeding
Station. In June 2013, the Federal        initial estimates. Amtrak is aware of this increase and is monitoring the
Railroad Administration provided          potential for further cost escalation.
Amtrak a $185 million grant to
construct the concrete casing, which      These are some of the highlights of our review:
is scheduled to be completed in
October 2015.                                An executive steering committee has been established to oversee
                                              project implementation.
Because of an ongoing commercial             The committee has a draft charter that identifies the senior executive
development, the concrete casing              accountable for the project and outlines the voting procedures.
project is being done now to                 A construction management firm has been hired to assist in overseeing
preserve a right-of-way for the new           the project’s implementation.
tunnels. It is important to maintain         Construction costs increased by $10.2 million (about 8 percent)
the project’s schedule because                — leaving about $5.1 million in the project’s contingency fund for cost
excessive delays could negatively             increases.
impact the commercial development            The commercial developer has identified about $9 million in
and could require Amtrak to                   additional cost increases that are being reviewed by Amtrak.
abandon the project.                         The Long Island Rail Road has identified about $5.3 million in support
Amtrak’s Board of Directors                   costs that were not included in the project budget.
requested that we periodically               Other cost increases are likely as the project progresses.
review Northeast Corridor
infrastructure projects. This is the      Recommendations
first in a series of planned reports.
Our objective is to assess the            To enhance Amtrak’s management of the concrete casing project, we
adequacy of the project’s                 recommend that the Vice President, Northeast Corridor Infrastructure
management and implementation             and Investment Development, take two actions:
by focusing on cost, schedule, and
performance.                                  1. Finalize and adopt the draft charter for the executive steering
                                                 committee.
For further information, contact Dave         2. Develop a risk mitigation plan to address potential cost increases
Warren, Assistant Inspector General for          and funding sources.
Audits, 202-906-4600.
To read the full report, see              In commenting on a draft of this report, the Vice President, Northeast
www.amtrakoig.gov/reading-room.           Corridor Infrastructure and Investment Development agreed with our
                                          recommendations.
      NATIONAL RAILROAD
      PASSENGER CORPORATION




Memorandum
To:            Stephen Gardner, Vice President, Northeast Corridor Infrastructure
               and Investment Development

From:          David R. Warren, Assistant Inspector General, Audits

Date:          February 11, 2014

Subject:       ACQUISITION AND PROCUREMENT: Gateway Program’s Concrete Casing
               Project Progressing Well; Cost Increases Will Likely Exceed Project Budget
               (Audit Report OIG-A-2014-004)

This report addresses one aspect of Amtrak’s Gateway Program, a planned but not fully
funded set of projects1 that would double rail capacity between Newark, New Jersey,
and Penn Station, New York City, including two new rail tunnels under the Hudson
River. Amtrak estimates that the program will cost about $14.7 billion and will be
completed in 2025.

One of Amtrak’s initial projects is to construct a concrete casing (box tunnel) beneath
the Hudson Yards in New York City.2 The project also includes partial demolition and
temporary relocation of activities in the Long Island Rail Road’s (LIRR) Maintenance of
Equipment (MOE) building, reconstruction of the MOE building, and project
management and administration. In June 2013, the Federal Railroad Administration
(FRA) provided Amtrak a $185 million grant to construct the concrete casing. The
project started in June 2013 and is scheduled to be completed in October 2015.

Because of an ongoing commercial development over Hudson Yards, Amtrak is
constructing the concrete casing now to preserve a right-of-way for two new rail
tunnels into Penn Station. The right-of-way is critical for expansion of intercity and
high-speed rail service on the Northeast Corridor (NEC). Further, the commercial


1
  These projects include constructing two rail tunnels under the Hudson River and expanding Penn
Station tracks and platforms that will eventually connect to a future station.
2 The box tunnel will measure approximately 800 feet long, 50 feet wide, and 35 feet tall.




           Certain information in this report has been redacted due to its sensitive nature.
                                                                                              2
                           Amtrak Office of Inspector General
       Acquisition and Procurement: Gateway Program’s Concrete Casing Project
          Progressing Well; Cost Increases Will Likely Exceed Project Budget
                              Audit Report OIG-A-2014-004

development and concrete casing need to be constructed at the same time to mitigate
impacts on LIRR operations and the commercial development.

If the concrete casing project is excessively delayed and negatively impacts the
commercial development schedule, Amtrak could be required to abandon the project.
This could put completion of the Gateway Program at risk. Also, if the MOE rebuild is
not completed by October 2015, Amtrak will continue to pay LIRR at least $         per
month to perform its operations at another location until the MOE rebuild is completed.

In April 2013, Amtrak’s Board of Directors requested that we periodically review NEC
infrastructure projects and provide timely information and recommendations on
emerging issues. In May 2013, we provided the Board with our preliminary
observations and identified risks related principally to project cost and project
management complexities. (For the briefing we provided to the Board, see Appendix B.)
The Board approved the project in May 2013.

This is our first report on NEC infrastructure projects; it builds on the work we
performed in support of the May 2013 briefing to the Board. Our objective is to assess
overall project management and implementation by focusing on whether cost, schedule,
and performance requirements related to the concrete casing project are being met. For
a more detailed discussion of our audit scope and methodology, see Appendix A.

THE PROJECT IS ON SCHEDULE, AND A MANAGEMENT
FRAMEWORK HAS BEEN ESTABLISHED

Amtrak has established an effective project management framework for managing the
concrete casing project. We did not identify any significant risks related to the project’s
scheduled completion or the contractor’s performance. Amtrak established an executive
steering committee to provide senior management oversight of the project. The committee
has drafted a charter that describes the committee’s purpose, authority, organization,
responsibilities, and protocols for meetings and reporting. The charter designates the Vice
President, NEC Infrastructure and Investment Development, as the committee chair and
explains the committee’s voting procedures. However, when we completed our work, the
charter had not been approved.

The committee also includes the Vice President, Operations; General Counsel; Chief
Engineer; Chief Financial Officer; and Chief Logistics Officer. A senior project manager
and a project manager from the Engineering department manage the project. Amtrak has

          Certain information in this report has been redacted due to its sensitive nature.
                                                                                                              3
                          Amtrak Office of Inspector General
      Acquisition and Procurement: Gateway Program’s Concrete Casing Project
         Progressing Well; Cost Increases Will Likely Exceed Project Budget
                             Audit Report OIG-A-2014-004

also contracted with a construction management firm for construction management and
inspection services.

                     Figure 1. Project Relationships and Roles




                                               AGREEMENTS a
    1. Railroad Coordination. Covers approval rights of MTA/LIRR with respect to the design and
       construction of the concrete casing, ensuring that it is constructed on time and without interfering
       with the overbuild project or yard operations, and requiring Amtrak to rebuild the MOE.

    2. Development. The Related Companies, L.P. acts as Amtrak’s agent to coordinate design and
       construction of the overbuild and the concrete casing projects and to rebuild LIRR’s MOE Building.

    3. Design/Build and General Conditions. Tutor Perini will complete the design of the concrete casing
       and construct the concrete casing for a lump sum price.

    4. Grant. Covers grant of $185 million to Amtrak and conditions of the grant, including FRA review
       and oversight.
      a
       Amtrak, MTA, and LIRR are negotiating an agreement that would grant Amtrak a permanent
       easement to construct, operate, and maintain the concrete casing
   Source: Amtrak Executive Steering Committee for Hudson Yards Concrete Casing Project


          Certain information in this report has been redacted due to its sensitive nature.
                                                                                              4
                           Amtrak Office of Inspector General
       Acquisition and Procurement: Gateway Program’s Concrete Casing Project
          Progressing Well; Cost Increases Will Likely Exceed Project Budget
                              Audit Report OIG-A-2014-004

On August 20, 2013, the executive steering committee held its first meeting. Members
were provided information on the project’s reporting and organization, construction
milestones, and Board update process. The committee had no written charter that
clearly defined its role and responsibilities, as we noted in an August 28, 2013 meeting
with the Vice President, NEC Infrastructure and Investment Development. Best project
management practices among private and public organizations include establishing a
charter that formally authorizes and guides a project to avoid gaps in project
accountability and management. Such a gap occurred on the concrete casing project in
August and September 2013 when Amtrak delayed awarding the contract for
construction management and inspection services.

Program management officials stated that the delay was caused by the lack of clarity
about the process for obtaining the Board’s approval for funding. As a result, Amtrak
had no third-party construction manager in place to manage and oversee the project for
about six weeks after the general contractor was given the notice to proceed. According
to the Deputy Chief Engineer, it would have been optimal to have the third-party
contractor onboard, but the absence did not have a material impact on the project
schedule. We noted that while the contractor was mobilizing, the Engineering
department coordinated activities with Related and MTA, and there was no schedule
slippage.

According to best project management practices, a charter should include the
responsibilities and authority levels of assigned leadership and the project approval
requirements—such as what factors constitute project success, and who will be
responsible for final sign-off at the completion of the project. At its October 21, 2013
meeting, the executive steering committee discussed a draft charter. The draft charter
describes the committee’s purpose, authority, organization, responsibilities, and
protocols for its meetings and reporting. It designates the Vice President, NEC
Infrastructure and Investment Development, as the committee chair and explains the
committee’s voting procedures. When we completed our work, the charter had not been
approved.

COSTS HAVE INCREASED, AND MORE INCREASES ARE LIKELY
Project costs are exceeding initial estimates. The contract price for the construction of the
concrete casing project exceeded the initial estimate by approximately 8 percent. Three
developing issues could further increase costs—additional work, support costs, and the
need for rock mass grouting. The project’s executive steering committee is aware of and is
monitoring the potential for further escalation in costs.
          Certain information in this report has been redacted due to its sensitive nature.
                                                                                                         5
                            Amtrak Office of Inspector General
        Acquisition and Procurement: Gateway Program’s Concrete Casing Project
           Progressing Well; Cost Increases Will Likely Exceed Project Budget
                               Audit Report OIG-A-2014-004

Increased Construction Cost

Construction costs for the project have increased by $10.2 million (7.6 percent) from the
initial estimate of $133.6 million to the contract price of $143.8 million, leaving about
$5.1 million in the project’s contingency fund for contract modifications. Changes made
by LIRR, Related, and Gateway Trans-Hudson Partnership3 were the primary reasons
for the cost increase, as shown in Table 1.

    Table 1. Cost Changes Between Initial Estimate and Contract Price
                              (in millions)
                            Reason for Change                   Amount     Percentage

               Long Island Rail Road                                  $4.4       43.3%
               Related                                                  2.9         28.7
               Gateway Trans-Hudson Partnership                         2.4         23.5
               Increased insurance and Saturday premium                 1.1         10.7
               Other (Tutor Perini or Other Third-Party)                1.0         10.0
               Savings due to contractor re-pricing                   (1.7)       (16.1)
               Total                                                 $10.2      100.0%
                Source: Amtrak OIG analysis of initial and final lump sum agreements
                Note: Numbers do not add to total due to rounding.

Prior to awarding the contract, Amtrak’s Engineering department asked an
independent construction firm, the Turner Construction Company, to review the final
estimate of Tutor Perini (the design/build contractor) to determine if it was fair and
reasonable. The review included assessing quantities of material, labor and material
unit rates, equipment charges, subcontractor costs, insurance, profit, overhead, and
other indirect costs.

The independent review also identified several areas in which Amtrak could negotiate
with various stakeholders to yield savings. For example, the contract price is based on
the local gas company relocating some gas lines at the construction site. However, Tutor
Perini estimates that it could perform the work at a lower cost. If Tutor Perini is able to
perform the work, Amtrak would share in any savings.




3
 The Gateway Trans-Hudson Partnership—a joint venture of Parsons Brinkerhoff, Inc.; AECOM USA,
Inc.; and STV Inc.—had the design contract for the concrete casing project, which was assumed by Tutor
Perini.

           Certain information in this report has been redacted due to its sensitive nature.
                                                                                                   6
                            Amtrak Office of Inspector General
        Acquisition and Procurement: Gateway Program’s Concrete Casing Project
           Progressing Well; Cost Increases Will Likely Exceed Project Budget
                               Audit Report OIG-A-2014-004

Potential Additional Cost Increases

Three developing issues could further increase the project’s construction costs:

       Additional work. Tutor Perini has identified the need for additional work that it
        estimates will cost about $9 million. The work consists of increasing the size of
        some caissons4 for the foundation of one of the commercial development’s
        towers and performing additional work on adjacent platform caissons and
        foundations. Project management officials have conducted preliminary
        discussions with Related on these proposed changes, but no decisions have been
        made on the validity of potential cost increases, according to the senior project
        executive.

       Increased support costs. LIRR estimated its costs to support the project to be
        about $5.3 million. These support costs were not included in the project budget.
        Project officials stated that there is some funding flexibility in other areas of the
        project budget that could be used to offset some of this additional cost. However,
        the precise areas and amounts would not be identified until a firm LIRR cost is
        determined.

       Rock mass grouting. Tutor Perini has identified a need for rock mass grouting5
        on some of the caissons. The scope of work and estimated costs have not yet been
        developed, according to Tutor Perini’s Vice President for Operations.

The project management team is aware of these issues and is working with Related,
Tutor Perini, and LIRR to determine the potential impact on construction costs.


RECOMMENDATIONS
To further enhance the management of the concrete casing project, we recommend that
the Vice President, NEC Infrastructure and Investment Development, take two actions:
    1. Finalize and adopt the draft charter for the executive steering committee.

    2. Develop a risk mitigation plan to address potential cost increases and funding
       sources.


4
 A caisson is a watertight retaining structure used to work on foundations.
5Rock mass grouting is the injection of grout into rock fissures to eliminate water seepage into
foundations.

            Certain information in this report has been redacted due to its sensitive nature.
                                                                                              7
                          Amtrak Office of Inspector General
      Acquisition and Procurement: Gateway Program’s Concrete Casing Project
         Progressing Well; Cost Increases Will Likely Exceed Project Budget
                             Audit Report OIG-A-2014-004

MANAGEMENT COMMENTS AND OIG ANALYSIS
In commenting on a draft of this report, the Vice President, Northeast Corridor
Infrastructure and Investment Development agreed with our recommendations. The
Vice President noted that the executive steering committee has adopted a charter. We
confirmed that all members signed it by January 24, 2014. He also noted that
management is working to identify the appropriate amount and funding source(s) for
additional contingency that may be needed, and expects to have that source in place by
April 15, 2014.

For a copy of management’s comments, see Appendix F.




          Certain information in this report has been redacted due to its sensitive nature.
                                                                                                   8
                            Amtrak Office of Inspector General
        Acquisition and Procurement: Gateway Program’s Concrete Casing Project
           Progressing Well; Cost Increases Will Likely Exceed Project Budget
                               Audit Report OIG-A-2014-004

                                             Appendix A

                              �
                              SCOPE AND METHODOLOGY

This report incorporates our preliminary observations on the concrete casing project
and our work through December 2013. In May 2013, we briefed the Board of Directors
on our preliminary observations (see Appendix B). Our objective is to assess overall
project management and implementation by focusing on whether cost, schedule, and
performance requirements related to the concrete casing project are being met. We
conducted this audit work from May 2013 through December 2013 in Philadelphia,
Pennsylvania; New York City; and Washington, D.C. Certain information in this report
has been redacted due to its sensitive nature.

To assess overall project management, we compared Amtrak’s project management
plans and practices to best project management practices used by private industry and
government entities. To identify best practices, we used the Project Management
Institute’s A Guide to the Project Management Body of Knowledge (PMBOK Guide)6 and the
Government Accountability Office Schedule Assessment Guide.7 To identify gaps in project
management, we compared these best practices to Amtrak’s Project Management/
Execution Plan for the concrete casing project.

We also participated as observers in the executive steering committee meetings, which
was formed to oversee the concrete casing project. In addition, we interviewed
Amtrak’s Vice President for Northeast Corridor (NEC) Infrastructure and Investment
Development about the role and responsibilities of the executive steering committee.
We also interviewed the senior project executive and the project manager about their
roles and responsibilities and those of the construction manager hired by Amtrak.
Finally, we interviewed Tutor Perini project officials and toured the construction site.

To provide observations on project implementation, we focused on the progress in
implementing the four agreements associated with the project:

       Design/Build Contract with Tutor Perini to design and construct the concrete
        casing

6 Project Management Institute, Inc.; A Guide to the Project Management Body of Knowledge (PMBOK
  Guide)—Fourth Edition (Newton Square, PA; 2008).
7 U.S. Government Accountability Office (GAO), GAO Schedule Assessment Guide, GAO-12-120G

  (Washington, D.C.; May 2012).

            Certain information in this report has been redacted due to its sensitive nature.
                                                                                              9
                           Amtrak Office of Inspector General
       Acquisition and Procurement: Gateway Program’s Concrete Casing Project
          Progressing Well; Cost Increases Will Likely Exceed Project Budget
                              Audit Report OIG-A-2014-004

      Development Agreement with The Related Companies, LP, to coordinate and
       oversee the concrete casing project with the development overbuild and MOE
       rebuild in the Hudson Yards
      Railroad Coordination Agreement with Long Island Rail Road
       (LIRR)/Metropolitan Transportation Authority (MTA) to ensure that the
       concrete casing can be constructed in a timely and orderly manner
      Permanent Easement Agreement with LIRR/MTA to grant Amtrak a permanent
       easement to use, operate, and maintain the concrete casing

Our initial work focused on identifying risks and open issues in the various
agreements prior to the Board’s approval. To identify risks, we reviewed each
agreement to assess whether all costs were identified, reviewed, and agreed upon. To
identify open issues, we interviewed personnel from three Amtrak groups who were
drafting and finalizing the various agreements—the office of the Chief Engineer; NEC
Infrastructure and Investment Development; and the Law department. On May 21,
2013, we provided the Board with our preliminary observations.

Once the Board approved the agreements, we conducted follow-up work to determine
if the risks and open issues that we identified had been addressed. To determine if the
open issues had been resolved, we reviewed the signed agreements and interviewed
personnel from the three groups. To identify changes in project costs, we compared
Tutor Perini’s initial price (based on 60 percent design) to the final lump sum price,
and we reviewed Turner Construction Company’s analysis of the final lump sum
proposal. We also interviewed two executives regarding the reason for the delay in
awarding the construction management contract and its impact on project
management—the Vice President, NEC Infrastructure and Investment Development,
and the Chief, Corridor Development.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

Internal Controls

We reviewed the management controls Amtrak has in place for planning, guiding, and
overseeing the concrete casing project. We focused on controls related to project cost,
          Certain information in this report has been redacted due to its sensitive nature.
                                                                                              10
                           Amtrak Office of Inspector General
       Acquisition and Procurement: Gateway Program’s Concrete Casing Project
          Progressing Well; Cost Increases Will Likely Exceed Project Budget
                              Audit Report OIG-A-2014-004

schedule, and performance issues. For cost, we reviewed the process used to review and
validate construction cost increases between the initial cost estimate and final lump
sum. For schedule, we reviewed the base line schedule and identified key milestones
that we will use to monitor progress. For performance, we reviewed the controls
established for project oversight—including the roles of the executive steering
committee, Engineering staff, and the contractor hired to provide construction
management services.

Computer-Processed Data
We did not use computer-processed data for any aspect of the audit.

Prior Audit Reports

We did not identify any prior audit reports related to the concrete casing project, but we
did review two reports related to project management and governance:

      American Recovery and Reinvestment Act: Opportunities Exist to Recover Funds and
       Reduce Future Costs by Improving Procurement Policies (Audit Report OIG-A-2013-
       016, July 29, 2013)
      Amtrak Corporate Governance: Implementing a Risk Management Framework is
       Essential to Achieving Amtrak’s Strategic Goals (Report No. OIG-A-2012-007, March
       30, 2012)




          Certain information in this report has been redacted due to its sensitive nature.
                                                                                      11
                    Amtrak Office of Inspector General
Acquisition and Procurement: Gateway Program’s Concrete Casing Project
   Progressing Well; Cost Increases Will Likely Exceed Project Budget
                       Audit Report OIG-A-2014-004

                                   Appendix B

                 OIG Briefing to Board of Directors




  Certain information in this report has been redacted due to its sensitive nature.
                                                                                      12
                    Amtrak Office of Inspector General
Acquisition and Procurement: Gateway Program’s Concrete Casing Project
   Progressing Well; Cost Increases Will Likely Exceed Project Budget
                       Audit Report OIG-A-2014-004




  Certain information in this report has been redacted due to its sensitive nature.
                                                                                      13
                    Amtrak Office of Inspector General
Acquisition and Procurement: Gateway Program’s Concrete Casing Project
   Progressing Well; Cost Increases Will Likely Exceed Project Budget
                       Audit Report OIG-A-2014-004




  Certain information in this report has been redacted due to its sensitive nature.
                                                                                      14
                    Amtrak Office of Inspector General
Acquisition and Procurement: Gateway Program’s Concrete Casing Project
   Progressing Well; Cost Increases Will Likely Exceed Project Budget
                       Audit Report OIG-A-2014-004




  Certain information in this report has been redacted due to its sensitive nature.
                                                                                                            15 
                            Amtrak Office of Inspector General
        Acquisition and Procurement: Gateway Program’s Concrete Casing Project
           Progressing Well; Cost Increases Will Likely Exceed Project Budget
                               Audit Report OIG-A-2014-004

                                               Appendix C

                          Preconstruction Activities Milestones
                                                  Baseline Schedulec              Actual
                                                                                Completion
   Activity                                                    Scheduled           Date            Status
                                                Start          Completion
     Advertise Amtrak CM Scope of                Not
     Worka                                    Applicable
                                                 Not
     Award Amtrak CM Contracta                Applicable
                                                                  Not
     Issue Notice to Proceeda                                  Applicable

     Utilities Work Plansb
     Maintenance of Equipment
     Building Demolition Work Plans

     Track Demolition Work Plans
     Soil Disposal Classification Work
     Plans
Source: Amtrak OIG analysis of Amtrak Gateway Tunnel Project documents

Notes:
a
  Amtrak’s critical milestones
b
  Consolidates work plans for electric, fire protection, gas, and storm-water utilities
c
  Baseline Schedule from Amtrak Gateway Tunnel Contract Schedule, October 25, 2013

Legend:
  Milestone not started or completed as scheduled
  Milestone started as scheduled and in process
  Milestone completed as scheduled




              Certain information in this report has been redacted due to its sensitive nature. 
                                                                                                          16
                              Amtrak Office of Inspector General
          Acquisition and Procurement: Gateway Program’s Concrete Casing Project
             Progressing Well; Cost Increases Will Likely Exceed Project Budget
                                 Audit Report OIG-A-2014-004

                                            Appendix D

                           Tunnel Construction Milestones
                                                                      b         Actual
                                                  Baseline Schedule
  Activity                                                                    Completion         Status
                                                Start       Completion           Date
  Retail Area
    Support of Excavation/Excavation
   Invert Slabs
   Walls
   Roof Slabs
   Overbuild Foundation Piers
   Waterproofing/Backfill
  Tower D Area

    Mobility/Site Fence/Site Demolition
                               a
    Site Utility Relocations

    Support of Excavation/Excavation
    Invert Slabs
    Walls
    Roof Slabs
    Overbuild Foundation Piers
    Waterproofing/Backfill
  Platform/Plaza
    Support of Excavation/Excavation
    Invert Slabs
    Walls
   Roof Slabs
   Overbuild Foundation Piers
   Waterproofing/Backfill
   Final Utility/Site Restoration
                              a
  Amtrak Tunnel Complete
Source: Amtrak OIG analysis of Amtrak Gateway Tunnel Project documents

Notes:
a
  Amtrak’s critical milestones
b
  Baseline schedule from Amtrak Gateway Tunnel Contract Schedule, October 25, 2013

Legend:
  Milestone not started or completed as scheduled
  Milestone started as scheduled and in process
  Milestone completed as scheduled



             Certain information in this report has been redacted due to its sensitive nature.
                                                                                                          17
                           Amtrak Office of Inspector General
       Acquisition and Procurement: Gateway Program’s Concrete Casing Project
          Progressing Well; Cost Increases Will Likely Exceed Project Budget
                              Audit Report OIG-A-2014-004

                                              Appendix E

                   Maintenance of Equipment Facility Milestones
                                                  Baseline Schedule
                                                                      b         Actual
  Activity                                                                    Completion         Status
                                                Start        Completion          Date
  60% Design for Rebuild of MOE

  90% Design for Rebuild of MOE

  100% Design for Rebuild of MOE

  Buyout/Procurement
  Maintenance of Equipment Building—
  Utility Disconnects
  Maintenance of Equipment Building—
  Remove/Store Existing Equipment
  Maintenance of Equipment Building—
  Demolition
                                      a
  MOE Building Rebuild Construction
  Long Island Rail Road Move Back
             a
  into MOE
Source: Amtrak OIG analysis of Amtrak Gateway Tunnel Project documents

Notes:
a
  Amtrak’s critical milestones
b
  Baseline schedule from Amtrak Gateway Tunnel Contract Schedule, October 25, 2013

Legend:
  Milestone not started or completed as scheduled
  Milestone started as scheduled and in process
  Milestone completed as scheduled




             Certain information in this report has been redacted due to its sensitive nature.
                                                                                      18
                    Amtrak Office of Inspector General
Acquisition and Procurement: Gateway Program’s Concrete Casing Project
   Progressing Well; Cost Increases Will Likely Exceed Project Budget
                       Audit Report OIG-A-2014-004

                                   Appendix F

       COMMENTS FROM AMTRAK’S MANAGEMENT




  Certain information in this report has been redacted due to its sensitive nature.
                                                                                             19
                           Amtrak Office of Inspector General
       Acquisition and Procurement: Gateway Program’s Concrete Casing Project
          Progressing Well; Cost Increases Will Likely Exceed Project Budget
                              Audit Report OIG-A-2014-004

                                         Appendix G

                                    ABBREVIATIONS


FRA                  Federal Railroad Administration

GAO                  U.S. Government Accountability Office

LIRR                 Long Island Rail Road

MOE                  Maintenance of Equipment

MTA                  Metropolitan Transportation Authority

NEC                  Northeast Corridor

PMBOK Guide          A Guide to the Project Management Body of Knowledge




         Certain information in this report has been redacted due to its sensitive nature.
                                                                                              20
                          Amtrak Office of Inspector General
      Acquisition and Procurement: Gateway Program’s Concrete Casing Project
         Progressing Well; Cost Increases Will Likely Exceed Project Budget
                             Audit Report OIG-A-2014-004

                                           Appendix H

                                  OIG TEAM MEMBERS
Michael Kennedy, Senior Director

Matt Simber, Senior Director

Dorian Herring, Auditor-in-Charge

David P. Bixler, Contractor

Jason Fong, Contractor




          Certain information in this report has been redacted due to its sensitive nature.
                                                                                              21
                           Amtrak Office of Inspector General
       Acquisition and Procurement: Gateway Program’s Concrete Casing Project
          Progressing Well; Cost Increases Will Likely Exceed Project Budget
                              Audit Report OIG-A-2014-004

            OIG MISSION AND CONTACT INFORMATION

Amtrak OIG’s Mission             The Amtrak OIG’s mission is to provide
                                 independent, objective oversight of Amtrak’s
                                 programs and operations through audits,
                                 inspections, evaluations, and investigations focused
                                 on recommending improvements to Amtrak’s
                                 economy, efficiency, and effectiveness; preventing
                                 and detecting fraud, waste, and abuse; and
                                 providing Congress, Amtrak management, and
                                 Amtrak’s Board of Directors with timely information
                                 about problems and deficiencies relating to Amtrak’s
                                 programs and operations.




Obtaining Copies of OIG Available at our website: www.amtrakoig.gov
Reports and Testimony
To Report Fraud, Waste, Report suspicious or illegal activities to the OIG Hotline
and Abuse               (you can remain anonymous):

                                 Web:       www.amtrakoig.gov/hotline
                                 Phone:     800-468-5469

Point of Contact                 David R. Warren
                                 Assistant Inspector General, Audits

                                 Mail:       Amtrak OIG
                                             10 G Street NE, 3W-300
                                             Washington D.C., 20002

                                 Phone:       202-906-4600
                                 E-mail:     David.Warren@amtrakoig.gov




          Certain information in this report has been redacted due to its sensitive nature.
